No. 19-968

 

IN THE

Supreme Court of the United States

CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.

STANLEY C. PRECZEWSKI, JANN L. JOSEPH, LOIS C.
RICHARDSON, JIM B. FATZINGER, TOMAS JIMINEZ, AILEEN
C. DOWELL, GENE RUFFIN, CATHERINE JANNICK DOWNEY,

TERRANCE SCHNEIDER, COREY HUGHES, REBECCA A.
LAWLER, AND SHENNA PERRY,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

BRIEF OF AMICUS CURIAE THE ISLAM & RELIGIOUS
FREEDOM ACTION TEAM OF THE RELIGIOUS
FREEDOM INSTITUTE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,507 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
